2311 Douglas Street

COCKLE

Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-351

FEDERAL REPUBLIC OF GERMANY, a foreign state,
and STIFTUNG PREUSSICHER KULTURBESITZ,
Petitioners,

v.
ALAN PHILIPP, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 27th day of December, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the REPLY TO BRIEF IN OPPOSITION TO PETITION FOR
WRIT OF CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail.
Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

DAVID L. HALL JONATHAN M. FREIMAN
WIGGIN AND DANA LLP Counsel of Record
Two Liberty Place TAHLIA TOWNSEND
50S. 16th Street BENJAMIN M. DANIELS
Suite 2925 DAVID R. ROTH
Philadelphia, PA 19102 WIGGIN AND DANA LLP
(215) 998-8310 265 Church Street

P.O. Box 1832

New Haven, CT 06508-1832

(203) 498-4400

jfreiman@wiggin.com

Counsel for Petitioners

Subscribed and sworn to before me this 27th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska . LE ‘,
My Commission Expires Nov 24, 2020 a

Notary Public Affiant 38817

 

 
SERVICE LIST

Nicholas M. O’Donnell
Sullivan & Worcester LLP
One Post Office Square
Boston, MA 02109

Telephone: (617) 338-2800
Facsimile: (617) 338-2880
Email: nodonnell@sandw.com

Attorney of Record for Respondents
Alan Philipp, Gerald G. Stiebel, and
Jed R. Leiber
